No. Case: 19-406

In the
SUPREME COURT OF THE UNITED STATES
MARILU TOUMA,
Petitioner,
vs.
THE GENERAL COUNSEL OF THE REGENT AND
ET AL, Respondents,
On Petition for Certiorari to the United States
Court of Appeals for the Ninth Circuit,
San Francisco, California, No. 18-55996
The Southern District Court,
Santa Ana, California. No. 8:17-cv-01132-VBF-KS
The Central District Court,
Los Angeles, California. No. 8:17-cv-01132-VBF-KS
CERTIFICATE OF COMPLIANCE
I am the Petitioner in this case and, as required by the Supreme Court 33.1 (b), I
certify this 1 of January 2020; that the petition for Rehearing does not exceed 3,000
words; excluding the parts of the documents that are exempt by the Supreme Court,
Rule 33.1 (d).
MARILU TOUMA
Plaintiff, Appellant and
Petitioner
4439 Murietta Avenue #20
Sherman Oaks, CA 91423
mtoume2017@aol.com
Pro Se

January 1, 2020

received
JAN - 7 2020

